In the

~upreme ~ourt

of tbe Wntteb ~tates

JAMES DAVID O'BRIEN,
Petitioner,

vs.
UNITED STATES SECURITIES AND
EXCHANGE COMMISSION,
Respondent.

On Petition for Writ of Certiorari to
the United States Court of Appeals for the
Second Circuit

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33. l(h), I certify that the PETITION FOR
WRIT OF CERTIORARI contains 5608 words, excluding the parts of the document
that are exempted by Supreme Court Rule 33. l(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on June 10, 2021.
m11·1an
Cou el of Record
HA AMIRIAN LAW FIRM, P.C.
40 East Main Street
Moorestown, New Jersey 08057
Telephone: (856) 793-9092
Facsimile: (856)793-9121
E-mail: jmh@h namirian.com
Counsel for Petitioner

